U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 1, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Scott Phillip Flynn v. United States of America,
S.Ct. No. 20-1129

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 11,
2021, and placed on the docket on February 17, 2021. The government’s response is due on
March 19, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 19, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1129
FLYNN, SCOTT PHILLIP
USA

IAN M. COMISKY
FOX ROTHSCHILD LLP
2000 MARKET STREET
20TH FLOOR
PHILADELPHIA, PA 19103
215-299-2000
ICOMISKY@FOXROTHSCHILD.COM

